No. 20-885
90 the Supreme Count of the United States

Next ENERGY, LLC, Petitioner,
v.
ILLINOIS DEPARTMENT OF NATURAL RESOURCES, Respondent.

On Petition for Writ of Certiorari
to the Illinois Appellate Court

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the Brief in Opposition for
Respondent contains 5231 words, excluding the parts of the document that are
exempted by Supreme Court Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on April 21, 2021.

    

100 West Randolph Stre

| Chicago, Illinois 60601

| (812) 814-5376

| jnotz@atg.state.il-us
Counsel for Respondent

 
